<html>
<title> - PROGRESS OF REENGINEERED 2010 CENSUS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                  PROGRESS OF REENGINEERED 2010 CENSUS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2007

                               __________

                            Serial No. 110-6

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-769                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 2007...................................     1
Statement of:
    Bowser, Robert L., mayor, East Orange, NJ, Vice Chair, Urban 
      Economic Policy Committee, U.S. Conference of Mayors; Karen 
      Narasaki, president and executive director, Asian American 
      Justice Center; Kenneth Prewitt, professor, Columbia 
      University, Director, U.S. Census Bureau (1998-2001); 
      Joseph J. Salvo, Ph.D., director, Population Division, New 
      York City Department of city of Planning; and Michael 
      Murray, vice president of programs, Civil Business Unit, 
      Government Communications Systems Division, Harris Corp....    45
        Bowser, Robert L.........................................    45
        Murray, Michael..........................................    82
        Narasaki, Karen..........................................    48
        Prewitt, Kenneth.........................................    64
        Salvo, Joseph J..........................................    69
    Waite, Preston Jay, Associate Director for Decennial Census, 
      U.S. Census Bureau; and Mathew J. Scire, Director, 
      Strategic Issues, Government Accountability Office.........     2
        Scire, Mathew J..........................................    12
        Waite, Preston Jay.......................................     2
Letters, statements, etc., submitted for the record by:
    Murray, Michael, vice president of programs, Civil Business 
      Unit, Government Communications Systems Division, Harris 
      Corp., prepared statement of...............................    84
    Narasaki, Karen, president and executive director, Asian 
      American Justice Center, prepared statement of.............    50
    Prewitt, Kenneth, professor, Columbia University, Director, 
      U.S. Census Bureau (1998-2001), prepared statement of......    66
    Salvo, Joseph J., Ph.D., director, Population Division, New 
      York City Department of city of Planning, prepared 
      statement of...............................................    71
    Scire, Mathew J., Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    14
    Waite, Preston Jay, Associate Director for Decennial Census, 
      U.S. Census Bureau, prepared statement of..................     5


                  PROGRESS OF REENGINEERED 2010 CENSUS

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2247, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Turner, and Maloney.
    Staff present: Tony Haywood, staff director/counsel; Alissa 
Bonner, professional staff member; Jean Gosa, clerk; Nidia 
Salazar, staff assistant; Jim Moore, minority counsel; Jay 
O'Callaghan, minority professional staff member; John Cuaderes, 
minority senior investigator and policy advisor; and Benjamin 
Chance, minority clerk.
    Mr. Clay. The Subcommittee on Information Policy, Census, 
and National Archives will come to order.
    Good afternoon, and welcome to today's hearing on 
preparations for the 2010 census.
    We will probably be interrupted within the first 15 minutes 
by a series of votes on the House floor, so at that time we 
will recess and then reconvene.
    This hearing is a first in a series of hearings to examine 
the Census Bureau's ongoing efforts of conducting a complete 
and accurate count of the Nation's population. With the 
decennial survey less than 3 years away, the 2008 dress 
rehearsal is rapidly approaching. Preliminary testing of new 
technology and procedure are already underway in two cities. We 
are at a critical stage of preparations for 2010.
    The first census was conducted 217 years ago. Article 1, 
Section 2 of the U.S. Constitution mandates an actual 
enumeration of the U.S. population for the purpose of 
apportionment of congressional seats. Information derived from 
census data is now used to allocate over $200 billion yearly in 
Federal financial assistance.
    In addition, State and local government agencies, 
businesses, academia, nonprofit organizations, and the members 
of the general public rely on census data to make informed 
decisions. Therefore, it is imperative that the data be 
complete, accurate, and secure.
    A successful census will depend upon combining excellent 
planning with appropriate execution. The Census Bureau used 
this formula to improve its overall response rate for the 2000 
census. Many factors contributed to their success, including 
working more effectively with State, local, and tribal 
governments and partnering with community-based organizations 
to reach traditionally under-counted populations.
    Still, the Bureau found that there were areas for 
improvement. According to Census Bureau estimates from 2000, 
there were 700,000 duplicate addresses, 1.6 million vacant 
housing units misclassified as occupied, 1.4 million housing 
units not included, 1.3 million housing units improperly 
deleted, and 5.6 million housing units incorrectly located on 
census maps. The result was a significant undercount, which 
prompted Congress to call for an overhaul of the census 
process.
    In 2001 the Census Bureau began the process of developing a 
reengineered 2010 census. We are here today to receive a 
progress report on the implementation of that design.
    In conducting census oversight, this subcommittee must also 
thoroughly assess the Bureau's ability to effectively monitor 
contracts and subcontracts. GAO estimates that $1.9 billion 
taxpayer dollars will be spent on seven major contracts. The 
Bureau must have mechanisms in place to ensure that these 
contracts are monitored for cost and quality control.
    It is equally essential that minority-owned businesses have 
a meaningful opportunity to fully participate in the process. 
It is imperative the that Census Bureau and its major 
contractors involve minority firms in the important work of 
conducting the survey. Making a conscious effort to work with 
minority-owned businesses will ensure that the 2010 decennial 
census is truly the most inclusive, complete, and accurate 
census in our Nation's history.
    We have assembled a diverse and distinguished group of 
witnesses who can provide credible and authoritative 
assessments of the Census Bureau's reengineered plan for the 
2010 decennial census. I want to thank all of our witnesses for 
appearing before the subcommittee today, and I look forward to 
your testimony.
    Mr. Turner is not here yet, but we will provide him 
opportunity for an opening statement when he does arrive.
    I would like to get the first panel started. Our first 
panel consists of the Honorable Preston Jay Waite, Associated 
Director for Decennial Census of the U.S. Census Bureau, and 
Mathew J. Scire, Director of Strategic Issues for the 
Government Accountability Office.
    Welcome to both of you. Mr. Waite, you may proceed.
    Let me ask you both to please stand. It is the policy of 
this committee to swear in all witnesses before they testify, 
and I would like to ask you both to please raise your right 
hands.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that both witnesses have 
answered in the affirmative.
    Mr. Waite, you may proceed.

    STATEMENTS OF PRESTON JAY WAITE, ASSOCIATE DIRECTOR FOR 
  DECENNIAL CENSUS, U.S. CENSUS BUREAU; AND MATHEW J. SCIRE, 
  DIRECTOR, STRATEGIC ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

                 STATEMENT OF PRESTON JAY WAITE

    Mr. Waite. Thank you, Mr. Chairman.
    On behalf of the Census Bureau, I would like to thank you 
and the members of the subcommittee for this opportunity, and 
would respectfully ask to submit my written testimony for the 
record.
    Mr. Clay. Certainly.
    Mr. Waite. Today I would like to focus on a few key points 
at this important moment in the decade. We are rapidly 
approaching census day. It is now less than 3 years away, and 
the goals that we established earlier in the decade are clearly 
in sight.
    The goals of the 2010 reengineered census design are to 
improve accuracy, reduce operational risk, improve the 
relevance and timeliness of long form data, and to contain 
costs. We are achieving these goals through an aggressive and 
comprehensive testing program.
    The 2010 census is the best-researched and best-tested 
census in our Nation's history. To that end, with the support 
of Congress we have developed a sustained comprehensive testing 
program in preparation for the 2010 short form only census. We 
have conducted key tests each year, beginning with national 
mail-out tests in 2003, as well as a second mailout test in 
2005, to assess the questionnaire content and wording. We have 
conducted major site tests in 2004 and 2006. In 2004, we 
conducted a test in the Queens Borough of New York City and in 
three counties in southwest Georgia, focused primarily on using 
new data collection technologies, including hand-held 
computers.
    We conducted a second major test site in 2006 in Travis 
County, TX, and in the Cheyenne River Reservation of South 
Dakota.
    These tests are vital to the success of the 2010 census and 
have served as proving grounds for our expanded automation 
efforts.
    Automation is one of the most important elements of the 
planned improvements for the 2010 census. We believe it will 
help us contain costs of field operations, reduce operational 
risk, and improve geographic accuracy. We are working with the 
private sector, Lockheed Martin on the automated data 
collection contract, and the Harris Corp. on automating our 
field data collection. We are striving to use test proven 
technologies, most notably the use of hand-held computers in 
the field for data collection.
    Based on these efforts, we are confident that automation 
will be a critical contribution to the overall success of the 
census. We are taking the experiences we have gained in our 
tests into the field in 2008 for our dress rehearsal. The sites 
for the dress rehearsal are in San Joaquin County, CA, and in 
Fayetteville and nine surrounding counties in eastern North 
Carolina. We have opened both these local census offices and 
have begun hiring in preparations for the dress rehearsal.
    The dress rehearsal is our last opportunity to ensure that 
planned procedures and operations tested throughout the decade 
will function as designed when you are integrated into a full 
census environment.
    As I mentioned earlier that census data 3 years away, it is 
important also to note that census operations actually are 
underway. In February of this year, we sent informational 
letters to each of the over 30,000 governmental units in the 
United States outlining our plans for the local update of 
census addresses or LUCA program. LUCA is one of the most 
important partnerships of the census. Working with local 
governments, we learn of new housing construction, demolitions, 
and conversions, as well as map feature updates. These 
additions to our file are fundamental to a complete housing use 
list and the geographic accuracy of the census.
    We have made significant improvements to the LUCA program 
since 2000. In contrast with the 2000 LUCA program, we are 
providing more advanced notice, better training, and better 
instructions. We are conducting LUCA updates prior to address 
listing, and participating governments will be offered options 
to partner with us, depending on their needs and capabilities. 
We believe that this will result in more governments 
participating, and therefore a more accurate census.
    Finally, in response to congressional concerns, governments 
will be given a longer review period, 120 calendar days instead 
of the 90 calendar days that we had in census 2000. We will 
also offer better assistance to local governments to answer 
their questions and to gauge their process.
    Mr. Chairman, the census is a very large and complex 
undertaking. The funding is necessarily cyclical in nature and 
the buildup is well underway. As has been the case in past 
censuses, we will incur major hardships of our funding stream 
is interrupted by a continuing resolution later in the decade. 
Should this be the case in fiscal year 2008, I would ask for 
your help to secure special consideration for the Census 
Bureau.
    To reach every household in America requires the success of 
a complex series of operations, ranging from LUCA, which 
enables the accuracy of the mass address file, to a well-
planned integration of our automation efforts. Everything needs 
to occur in sequence in a very short period of time. We believe 
that we are well on our way to meet that challenge.
    The census is a significant investment in our Nation's 
future, and with your help I believe the 2010 census, with the 
shortest and simplest questionnaire since 1790, will be a huge 
success.
    Thank you, Mr. Chairman. I will be happy to answer 
questions.
    [The prepared statement of Mr. Waite follows:]

    [GRAPHIC] [TIFF OMITTED] T5769.001
    
    [GRAPHIC] [TIFF OMITTED] T5769.002
    
    [GRAPHIC] [TIFF OMITTED] T5769.003
    
    [GRAPHIC] [TIFF OMITTED] T5769.004
    
    [GRAPHIC] [TIFF OMITTED] T5769.005
    
    [GRAPHIC] [TIFF OMITTED] T5769.006
    
    [GRAPHIC] [TIFF OMITTED] T5769.007
    
    Mr. Clay. Thank you so much for your testimony, Mr. Waite.
    The bells have rung, but we are going to take Mr. Scire's 
testimony and then we will recess the hearing.
    Please proceed, Mr. Scire.

                   STATEMENT OF MATHEW SCIRE

    Mr. Scire. Mr. Chairman, thank you for the opportunity to 
be here today to discuss preparations for the 2010 census.
    The Bureau has introduced significant change for 2010, 
including using only a short form and relying more on 
technology to carry out operations. These changes hold out the 
prospect of improving accuracy and reducing costs, but they 
also bring with them the need for managing the risk inherent 
whenever making changes to an operation as complex and critical 
as the decennial census.
    Let me start by recognizing the Bureau's efforts to 
increase the response rate for the decennial.
    First, by using only the easier-to-complete short form, the 
Bureau expects to increase response rate by 1 percent. 
Similarly, the Bureau expects to increase the ultimate response 
rate by sending second surveys to households that do not 
respond to the first.
    The Bureau also plans a public awareness campaign, as it 
did in the previous census. This campaign has two major parts: 
a paid advertising campaign, and a partnership program where 
the Bureau works with governments, community-based 
organizations, the media, and others to elicit public 
participation in the census.
    Mr. Chairman, one of the most significant changes to the 
census is the greater use of automation and technology. This 
includes the introduction of the handheld mobile computing 
device [MCD], that staff will use to conduct field work. As you 
know, earlier MCDs tested in 2004 and 2006 were not reliable. A 
new device will soon begin field use as part of the dress 
rehearsal in parts of North Carolina and California.
    The Bureau relies on this technology and other systems to 
support key functions. Overall, the greater reliance on 
contractor-developed automation and technology for the 2010 
census calls for greater focus on sound acquisition and 
management of these key investments.
    To complete the census, the Bureau recruits, hires, trains 
the temporary work force that, at peak, exceeds one-half 
million. To do this, the Bureau plans to recruit five times as 
many applicants than it hires, and hire twice as many people as 
it needs, in anticipation of high levels of turnover.
    We believe that the Bureau could refine its approach. For 
example, the Bureau could do more to study the factors that 
affect worker performance and willingness to stay throughout an 
operation. Also, the Bureau could do more to consider past 
performance when re-hiring.
    We also believe the Bureau could improve its approach to 
training, which relies on a verbatim reading of training 
material. Likewise, the Bureau could do more to ensure that 
training sufficiently covers key challenges field staff are 
likely to face. These include working with reluctant 
respondents, as well as dealing with local conditions, such as 
enumerating in rural areas versus urban areas.
    Finally, I would like to call attention to Bureau plans for 
enumeration in the Gulf Coast region. The effects of Hurricanes 
Katrina and Rita are still visible today. Numerous housing 
units have been or will be demolished as a result of the 
hurricanes and subsequent deterioration. Conversely, in some 
jurisdictions there is new development of housing units. This 
continuing change in housing unit stock makes it difficult for 
local governments in affected areas to assist the Bureau in 
reviewing address lists as part of the LUCA 2010 program this 
summer.
    The mixed condition of the housing stock may also affect 
other Bureau operations. For example, Bureau field staff 
conducting address canvassing potentially face challenges of 
distinguishing between abandoned, vacant, and occupied housing 
units, as well as additional temporary housing units. On the 
other hand, non-response workload could be increased if the 
Bureau mails questionnaires to housing units that remain vacant 
on census day.
    The Bureau has proposed several changes to the 2010 LUCA 
program for the Gulf Coast region, including accelerating the 
timing of training for affected localities. Bureau plans for 
addressing the potential impact on other operations is still 
ongoing.
    In summary, Mr. Chairman, we believe that the 
reengineering, if successful, can help control costs and 
improve accuracy, yet there is more that the Bureau can do to 
refine recruiting, hiring, and training practices, and to 
prepare to enumerate in hurricane affected areas.
    Also, the functionality and usability of the MCD 
specifically, and the oversight and management of information 
technology investments generally bear watching.
    As in the past, we look forward to supporting this 
subcommittee's oversight efforts to promote a timely, complete, 
accurate, and cost-effective census.
    This concludes my opening remarks. Thank you again for the 
opportunity to speak today. I would be glad to take whatever 
questions you may have.
    [The prepared statement of Mr. Scire follows:]

    [GRAPHIC] [TIFF OMITTED] T5769.008
    
    [GRAPHIC] [TIFF OMITTED] T5769.009
    
    [GRAPHIC] [TIFF OMITTED] T5769.010
    
    [GRAPHIC] [TIFF OMITTED] T5769.011
    
    [GRAPHIC] [TIFF OMITTED] T5769.012
    
    [GRAPHIC] [TIFF OMITTED] T5769.013
    
    [GRAPHIC] [TIFF OMITTED] T5769.014
    
    [GRAPHIC] [TIFF OMITTED] T5769.015
    
    [GRAPHIC] [TIFF OMITTED] T5769.016
    
    [GRAPHIC] [TIFF OMITTED] T5769.017
    
    [GRAPHIC] [TIFF OMITTED] T5769.018
    
    [GRAPHIC] [TIFF OMITTED] T5769.019
    
    [GRAPHIC] [TIFF OMITTED] T5769.020
    
    [GRAPHIC] [TIFF OMITTED] T5769.021
    
    [GRAPHIC] [TIFF OMITTED] T5769.022
    
    [GRAPHIC] [TIFF OMITTED] T5769.023
    
    [GRAPHIC] [TIFF OMITTED] T5769.024
    
    [GRAPHIC] [TIFF OMITTED] T5769.025
    
    [GRAPHIC] [TIFF OMITTED] T5769.026
    
    [GRAPHIC] [TIFF OMITTED] T5769.027
    
    [GRAPHIC] [TIFF OMITTED] T5769.028
    
    [GRAPHIC] [TIFF OMITTED] T5769.029
    
    [GRAPHIC] [TIFF OMITTED] T5769.030
    
    [GRAPHIC] [TIFF OMITTED] T5769.031
    
    [GRAPHIC] [TIFF OMITTED] T5769.032
    
    Mr. Clay. Thank you, Mr. Scire, for your testimony, and 
thank you both for your testimony.
    Without objection, we will recess at this time and 
reconvene in a matter of half an hour.
    We stand in recess until we conclude the votes on the House 
floor. Thank you.
    [Recess.]
    Mr. Clay. The subcommittee will reconvene.
    Let me thank you both for your testimony. Hopefully, we 
will not be interrupted for votes between now and the 
conclusion of the hearing.
    Mr. Waite, you in your testimony mentioned the issue of 
funding and partnership. Let me ask you, in 1998 the Bureau 
devoted a substantial amount of resources to the partnership 
program in preparation for the 2000 census. For fiscal year 
2008, the President did not request any funding for partnership 
activities. I am concerned that this could have a negative 
impact on the effectiveness of census outreach efforts. How 
much additional funding would the Bureau need to receive in 
fiscal year 2008 in order to replicate the partnership program 
activities that were carried out in fiscal year 1998 for the 
2000 census?
    Mr. Waite. Mr. Chairman, the partnership program is 
designed a little bit differently this time, and so we are 
planning to do more of our work closer to the census. But, in 
direct answer to your question, we would need about $18 million 
in what we call the regional partnerships to replicate what had 
happened in 1998. That is not the administration's plan right 
now, but that is what it would take.
    Mr. Clay. Well, if Congress were to appropriate the $18 
million, would the Bureau use them to support partnership 
program activities in fiscal year 2008?
    Mr. Waite. Absolutely. The Bureau would use whatever money 
Congress appropriates for whatever purpose, and we would do 
that.
    Mr. Clay. OK. If so, what would the activities consist of 
and how would they benefit your efforts to achieve an accurate 
census?
    Mr. Waite. The activities that we did in 1998 involved what 
we called regional partnership specialists and regional 
partnerships where it would be spent in the field, where people 
in the regions would be going around and working with 
communities and city groups and other groups that are 
interested in the census to try to get them to form complete 
count committees and some of those sort of things to get the 
local communities involved into the census effort. That is the 
activity that the regional partnerships will do in 2009 for 
sure. That is the kind of thing they would do--hiring some 
individuals to organize and be catalysts for partnership 
activity out in the communities.
    Mr. Clay. OK. Thank you. Former Congressman and California 
State Senator John Burton, founder and president of the John 
Burton Foundation, and other interested parties from across the 
country have expressed great concern about the Bureau's plan to 
omit the foster care question from the short form and the 
American Community Survey. Would you please explain as clearly 
as you can to the layman's ear how including either of these 
questions would adversely impact the overall response rate?
    Mr. Waite. OK. Mr. Chairman, I don't believe that we would 
be able to say that it would adversely affect the response rate 
by including them. We have done a lot of research. We are very 
concerned about counting everyone, and certainly counting every 
child and every foster child in the census. That is our primary 
focus.
    The question in mind is, after we have counted someone, we 
indicate how they are related to the head of the house or to 
the person on line one. In 2000, for the first time we had a 
separate category called foster child.
    Mr. Clay. Right.
    Mr. Waite. And the answers that we got from that, frankly, 
really were not all that good. We got information, but the 
information we had was only about 62 percent of the foster 
children that are accounted for on an adoption and foster care 
analysis reporting system that is run by Health and Human 
Services, where they actually have the rolls of the foster 
children. It is administrative records. They follow who these 
children are.
    Our counts nationally were about 62 percent of that. The 
reason, primarily, we found as we did research, was that about 
20 percent of foster children are actually in a home and their 
guardian is a relative. It might be a grandparent, might be an 
uncle.
    Mr. Clay. Yes.
    Mr. Waite. And so, even though we would ask them, if you 
are the uncle and you say OK, I am person No. 1, and now you 
have this foster child, how is this foster child related to 
you, well, he's my nephew, even though he is a foster child, as 
well. So the core people were not recording that as foster 
children. There is also about 20 percent of the foster children 
are in group homes where we don't know how to ask the question 
about the relationship to whom.
    Certainly we would be happy to review that with you and 
talk about alternatives, but part of our consideration was we 
are not very confident about the numbers that we get, 62 
percent of what we think is the national count. I'm not sure 
whether that is helpful to people, because it is not 62 percent 
in every State. In some States like California it is less than 
40 percent, in other States it is actually over 100 percent, so 
there is a lot of disparity by States in our count. So the fact 
that data is not as good as we might have thought it was, 
combined with the fact that we do have a very crowded 
questionnaire--I don't know if you have seen our short-form 
questionnaire. I would be happy to show it to you afterwards. 
But there is a lot of information on the questionnaire.
    Those two things caused us to find that we would probably 
be better off if we didn't have that particular category.
    Now, the reason for the questionnaire problem has to do 
mechanically with the fold, but I want you to know that is not 
the death issue. We could probably find some way on the 
questionnaire. I raised the question whether it is really a 
good idea to collect data that is that far off of complete.
    Mr. Clay. Well, given how important the foster care data is 
to providing adequate services for foster children, will you 
commit to working with the subcommittee and with interested 
groups to find a way to include the foster care question on the 
short form?
    Mr. Waite. I absolutely will commit to working with you, 
and if I can't convince you that what we are doing is right, 
then we will find a way to put it on the form.
    Mr. Clay. OK. Let's look at that.
    Also, the 2010 census, for the census the Bureau currently 
plans for the first time ever in decennial operations to use 
mobile computing devices for address canvassing, non-response 
followup, and census coverage measurement. In the past, these 
operations were completed using a paper only process.
    Mr. Waite. True.
    Mr. Clay. In the 2004 and 2006 tests, the MCD was not 
reliable and did not function as intended. What contingency 
plans does the Bureau have in case the handheld computer does 
not function in the 2008 dress rehearsal?
    Mr. Waite. Well, first let me put that in a little bit of 
context. In 2004 and in 2006 the handheld devices that we used 
were of our own purchase, and then we built the software. We 
realized in 2004 that most of the problems were software 
problems. We weren't able to program them well enough for them 
to perform properly. Based on that, we began the process to go 
out and get the private sector, who had a lot more expertise in 
that area, to help us.
    We now have handheld devices that are being used in the 
dress rehearsal that are far superior in many ways. You can 
probably talk to the person from Harris who is, I think, on the 
next panel. They are far superior to the ones that we were 
using in 2004 and 2006. They are better programmed, they are 
faster. We have had pretty extensive tests on making them work. 
I am very confident that they are going to work properly in 
that test.
    Mr. Clay. How accurate are they now? I mean, do they 
actually record the address of a building?
    Mr. Waite. Yes, they do.
    Mr. Clay. And how does it deal with----
    Mr. Waite. And they record the address and also the GPS 
coordinate of that building.
    Mr. Clay. OK. How does it record all the addresses in an 
apartment building?
    Mr. Waite. It doesn't individually record the GPS 
coordinate of the individual apartments, but, just like we did 
with paper, you would go inside the building and you would 
indicate the apartment numbers on the handheld device, just 
like you would on a piece of paper. We get one GPS coordinate 
for that building, but you would get the individual addresses 
in that building just the same way you did with paper.
    It is actually quite a bit better than paper, because now 
you already have it automatically in your files. When we did 
the paper lists we had to then send them somewhere and key the 
results, which oftentimes had quite a few errors associated 
with them.
    Mr. Clay. What percentage of success would you give the 
handheld, compared to your computers? What percentage of 
success?
    Mr. Waite. I think I could say that virtually all of the 
problems that we experienced in 2004 and 2006--they were 
problems of transmission, they were problems of speed, how 
quickly did the machines turn around. All of those problems 
have been corrected by the new machine.
    Mr. Clay. OK. Thank you for your responses.
    Mrs. Maloney, you may proceed.
    Mrs. Maloney. Thank you, Mr. Chairman. I welcome the 
witnesses and thank you for your testimony.
    Mr. Waite, I was concerned about the lack of money, the $22 
million that OMB requested from the partnership from OMB. 
Cutting that out just doesn't make sense to me whatsoever. I am 
very concerned about it. I would say that one of the key 
reasons that the 2000 census was better than the 1990 census 
was because we had this partnership, and I believe it is short-
sighted and, if left uncorrected, will damage the government's 
ability to do a good census in 2010.
    I would really like to quote from Don Evans, the former 
Commerce Secretary and Bush-Cheney campaign chairman, and a man 
with, I would say, impeccable conservative credentials, and he 
said this before the Senate Commerce Committee. ``Partnerships, 
140,000 in all with State, local, and tribal governments, 
community and advocacy groups, the private sector, religious 
organizations, educational institutions, and the Congress were 
key to building support and removing obstacles to participation 
in the census.'' So do you agree with Mr. Evans' statement?
    Mr. Waite. Absolutely.
    Mrs. Maloney. Then why is this $22 million cut out of your 
budget?
    Mr. Waite. We have a plan for partnership activities in 
2009 and 2010. There isn't plans for that kind of work. It was 
actually $18 million. I think there may have been a misquote of 
the number when----
    Mrs. Maloney. So $18 million. How did it get removed? Did 
you request for it to be removed? OMB asked for it. How did it 
get out of your budget?
    Mr. Waite. We ask for a lot of things in prioritizing the 
census.
    Mrs. Maloney. Yes.
    Mr. Waite. From the various places of the census, we have a 
lot of issues that we would like to do. Invariably, there needs 
to be a priority setting of things that are more or less 
important. I think I can say that spending money on 
partnerships in 2008 was not a higher priority than anything in 
the census that we already had.
    Mrs. Maloney. But you are going to spend money in 2009 and 
2010----
    Mr. Waite. Absolutely.
    Mrs. Maloney [continuing]. In the partnership?
    Mr. Waite. Absolutely.
    Mrs. Maloney. Well, how do the preparations for the 2010 
census compare to a similar point in time in advance of 2000?
    Mr. Waite. You mean for the partnership program?
    Mrs. Maloney. Yes. No preparations at all.
    Mr. Waite. Well, preparations in all, I think this census 
is far advanced from where we were in 2000 in 1997. We are much 
better organized. We have tested our procedures a lot better. 
We are a long way ahead of where we were 10 years ago. The 
partnership program----
    Mrs. Maloney. Specifically, where are you ahead than where 
you were in 2000?
    Mr. Waite. We are a long ways ahead. We have an organized 
LUCA program, a local update of census addresses. If you 
recall, last time we were trying to play catch-up with it in 
1997 and 1998. We sent materials to communities that they 
weren't ready for, they couldn't understand very well. We 
didn't have very good participation.
    In contrast with that, we now have already mailed out the 
invitations to be involved in LUCA to all the 39,000 
governmental units. We have a plan where we will do the LUCA in 
advance of address listing so we will have a clean way of 
verifying it. We are a long way ahead on that process.
    On the budget process we are a long way ahead. In 1997 we 
were in chaos on the budget, not knowing where we were going 
and what we were going to do. We now have that in control and 
organized.
    If you recall, and I'm sure you do, back in 1997 we were 
still trying to decide which of two tracts we might take in the 
census, and that was very, very difficult to try to run down 
two roads at the same time. I think we have a clear vision of 
where we are going now, how we are going to get there.
    We have tested the procedures that we are putting into the 
census better this time, thanks really to the support of the 
Congress all during this decade, by far better than we have 
done in any census previously. I think we are way ahead.
    Mrs. Maloney. Well, what advice would you give to Congress 
in how we can help make the 2010 census better than the 2000 
census? What can we do to help you?
    Mr. Waite. I think the biggest thing that you could do to 
help me, the biggest thing I worry about as I look down the 
road at the bogeymen that are coming, I think the biggest thing 
that I worry about is the continuing resolution at the end of 
this fiscal year. Our budget for 2008 is double what it was for 
2007.
    Mrs. Maloney. Yes.
    Mr. Waite. We cannot go any distance at all into fiscal 
year 2008 with 2007 spending without sort of derailing the 
train. That is the thing I worry about a great deal, that 
whatever resources the census is going to get, we need to get 
them early in the fiscal year so that we can keep moving.
    Mrs. Maloney. Thank you. My time is up.
    Mr. Waite. Thank you.
    Mr. Clay. Thank you, Mrs. Maloney.
    Mr. Scire, let me ask you, GAO recommends that the Census 
Bureau better target its recruiting and hiring for the 
characteristics of employees who are successful at census work 
and less likely to leave census work before an operation ends. 
What prompted this recommendation?
    Mr. Scire. Mr. Chairman, we just completed a study that we 
have been working on over the last year looking at recruiting, 
hiring, and training. The reason that we looked at that is 
because it hasn't been something looked at often before, and 
also because it represents a significant cost to the overall 
census. So that is what prompted the work.
    Mr. Clay. If implemented, what impact do you believe the 
recommendation will have on recruitment and hiring for the 2010 
decennial census?
    Mr. Scire. The reason that we made the recommendation was 
that we thought the Bureau could gain certain efficiencies in 
its recruiting process, and also in its operations. At peak 
force, the census has half a million people that are working in 
the field. If they are earning, on average, $10 an hour, that 
means it is a $5 million an hour operation.
    So to the extent that you can attract people that are going 
to be more effective at the work, and also those that are going 
to stay throughout an operation, you can save some number of 
hours of the operation. You could also reduce retraining for 
individuals that are joining the operation after others have 
left, or even training some at the outset that are not likely 
to continue throughout an operation. So we really looked at it 
in terms of efficiency of the recruiting process, as well as 
the efficiency of operations.
    Mr. Clay. In your written testimony you state that the 
Commerce Department has expressed reservations about 
implementing the recommendations GAO made for refining the 
Department's recruitment and hiring strategies for the 2010 
census. What impact do you believe that this will have on the 
recruitment?
    Mr. Scire. Well, I think that the Department expressed 
reservation largely because it does not want to be in a 
position where it has insufficient numbers of people to conduct 
the census, and we recognize that concern. That is why what we 
are talking about is not a major change in their operations, 
but rather a refinement.
    So we think that by doing the analysis which would permit 
them to identify those who are more likely to do well with the 
work and to stay throughout an operation, that they could 
reduce their cost in terms of recruiting and hiring. That, I 
think, is the ultimate outcome that we are looking at.
    Mr. Clay. Thank you for that response.
    GAO's analysis of the Census Bureau's figures on the 
average cost per housing unit for the decennial census 
concluded that the cost has increased from $13 in 1970 to a 
projected $72 for the 2010 census. That is in constant dollars 
for the fiscal year 2000 and amounts to a $59 increase per 
dwelling over 40 years. Over the same period, the overall mail 
response rate declined from 78 percent to 64 percent, as you 
reported. Some of this may be due to changing lifestyles of the 
population, namely people becoming more mobile. If you factor 
in the changing characteristics of the population, how would 
you rate the Bureau's efficiency in conducting the decennial 
census?
    Mr. Scire. Well, I think we can say that the Bureau faces a 
daunting challenge, and particularly with trying to reach a 
population that is increasing reluctantly to respond. We have 
said before that we think that the reengineering is a positive 
thing, that this is something that has both objectives of 
controlling costs and also increasing accuracy.
    So we look at the reengineering as something that will help 
ameliorate the trend that you see in terms of what it costs per 
household to enumerate.
    Mr. Clay. OK. Thank you for your response.
    Let me thank both members of the panel for your responses 
to the questions. Believe me, this will be the first time but 
it won't be the last that you will be before this committee. I 
look forward to working with both of you. Thank you very much.
    Mr. Waite. Thank you.
    Mr. Scire. Thank you, Mr. Chairman.
    Mr. Clay. We will take the second panel.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that all of the witnesses 
answered in the affirmative.
    Our second panel today consists of five distinguished 
witnesses. We will go in this order, first with the Honorable 
Robert L. Bowser, mayor of East Orange, NJ, and vice chairman 
of Urban Policy Committee for the U.S. Conference of Mayors. 
Second will be Karen Narasaki, president and executive director 
of Asian American Justice Center, on behalf of the Leadership 
Conference of Civil Rights.
    Then we will have the Honorable Kenneth Prewitt, professor 
of Columbia University and former Director of the U.S. Census 
Bureau from 1998 to 2001. Then we will have Dr. Joseph Salvo, 
director of the Population Division for New York City 
Department of City Planning, and Mr. Michael Murray, the vice 
president of programs, Civil Business Unit, Government 
Communications Systems Division for Harris Corp.
    Welcome to all of you. Thank you for coming to day.
    Mayor Bowser, we will begin with you. Please proceed.

STATEMENTS OF ROBERT L. BOWSER, MAYOR, EAST ORANGE, NEW JERSEY, 
VICE CHAIR, URBAN ECONOMIC POLICY COMMITTEE, U.S. CONFERENCE OF 
MAYORS; KAREN NARASAKI, PRESIDENT AND EXECUTIVE DIRECTOR, ASIAN 
 AMERICAN JUSTICE CENTER; KENNETH PREWITT, PROFESSOR, COLUMBIA 
UNIVERSITY, DIRECTOR, U.S. CENSUS BUREAU (1998-2001); JOSEPH J. 
  SALVO, PH.D., DIRECTOR, POPULATION DIVISION, NEW YORK CITY 
   DEPARTMENT OF CITY OF PLANNING; AND MICHAEL MURRAY, VICE 
    PRESIDENT OF PROGRAMS, CIVIL BUSINESS UNIT, GOVERNMENT 
         COMMUNICATIONS SYSTEMS DIVISION, HARRIS CORP.

                   STATEMENT OF ROBERT BOWSER

    Mr. Bowser. Thank you, Mr. Chairman. I am Robert Bowser, 
mayor of the city of East Orange, NJ, and I currently serve as 
vice chairman of the U.S. Conference of Mayors Urban Economic 
Policy Committee. I appreciate this opportunity to appear on 
behalf of the Nation's mayors to share our views on the 2010 
decennial census.
    Before I go any further, I would like to commend you, 
Chairman Clay, and also Ranking Member Michael Turner, for your 
leadership on this subcommittee and your sensitivity to local 
concerns. We appreciate your support for local governments.
    As mayors, we come to the census. We believe when it comes 
to the census nothing is more important than a fair and 
accurate count of all the people residing in our cities. In a 
broad sense, the decennial census is the cornerstone of our 
democracy.
    The central message I want to leave with you today is that 
it is critical that Congress provide full funding of the U.S. 
Census Bureau to ensure accuracy and cost effectiveness in 
planning and conducting the next census. For the past several 
years, the Census Bureau's budget has been vulnerable to 
amendments on the House floor. Members seeking money for other 
worthwhile projects, such as law enforcement, anti-drugs, and 
community policing, have seen the census funds as an easy 
target since the census budget is rising so quickly and 
significantly in preparation for the 2010 census.
    During the 109th Congress, the House passed an 
appropriations measure that would have cut Census Bureau funds 
by $58 million. This cut threatened to disrupt the Census 
Bureau's implementation of the American Community Survey, which 
is designed to replace the traditional long form and provide 
more accurate and timely data.
    To serve as a reliable replacement to the traditional long 
form, the American Community Survey must collect data from the 
entire population, including people living in group quarters 
such as college dorms, nursing homes, military barracks, and 
prisons. To offset the cut, the Bureau said it would have to 
eliminate group quarters from the American Community Survey. 
The Bureau also announced that the cut would force it to 
abandon plans to use GPS-equipped handheld computers needed to 
gather data information from unresponsive households. This 
would be unfortunate, because the new technology will save the 
Census Bureau an estimated $1 billion in the long term by 
eliminating the costly reliance on paper.
    Fortunately, Mr. Chairman, following the November elections 
last year the new leadership in Congress restored full funding 
for the census in the fiscal year 2007 spending bill. This will 
allow the Census Bureau to fully implement the American 
Community Survey, as well as continued development of the GPS-
equipped handheld computers.
    For the new fiscal year, the Census Bureau has requested 
$797 million to continue preparing for the 2010 census. The new 
request amounts to $285 million increase over the current 
fiscal year and would allow the Census Bureau to continue 
census planning, testing, and development activities.
    One of the key elements in assuring a fair and accurate 
census count is starting with the accurate address list of all 
housing units and group quarters within each community. In 
1994, Congress passed the Census Address List Improvement Act 
to facilitate cooperation between the Census Bureau and local 
governments to improve the census address list. The Census 
Bureau operationalized the law in a program it called local 
update of census address [LUCA].
    The congressional intent of the Census Address List 
Improvement Act was two-fold: first, Members believed that by 
drawing on the knowledge of local officials the Census Bureau 
would improve the quality of the address list; second, they 
believed the local government officials would have more 
confidence in the quality of the address list if they were 
active participants in the process and had the opportunity to 
review the address list for their jurisdiction before the 
census.
    We agree, as mayors, with the congressional intent of the 
Census Address List Improvement Act and we are eager to work 
with the Census Bureau to improve upon the process started for 
the 2000 census.
    Many of the problems from the 2000 LUCA program can be 
resolved by bringing local government officials into the 
process earlier, committing greater resources to the address 
list process, and increasing education so that local officials 
and Census Bureau employees understand their shared goals.
    In preparation for the 2010 census, the Census Bureau is 
making a number of changes to the LUCA program that will be 
tested in the 2008 census dress rehearsal. Among the changes, a 
single review cycle for all address types will replace the 
multiple-cycle review used for the 2000 census. The review 
period will also be extended from 90 days to 120 days, and 
designated local governments will be given two opportunities to 
review and provide feedback on the address lists for their 
area. They will also have the opportunity to repeal the 
results.
    For mayors, the LUCA program is a very important step in 
ensuring a fair and accurate count in 2010. Unless we establish 
a complete and accurate address list in each community, it will 
be close to impossible to ensure the accuracy of the next 
census.
    Again, the key to ensuring the successful implementation of 
LUCA is adequate funding that will allow the Census Bureau to 
conduct timely training, review LUCA submissions, 100 percent 
canvassing after LUCA submissions are incorporated, and allow 
for timely second chance review by local governments before the 
master file is finalized.
    Mr. Clay. Mr. Mayor, may I ask you to summarize, please?
    Mr. Bowser. I will speak of local.
    Mr. Clay. OK.
    Mr. Bowser. Mr. Chairman, because the program is so 
important, I directed my staff at home to develop a Census 2010 
Review Committee to ensure oversight of our involvement in the 
LUCA program. We have input from our Department of Planning, 
Property and Maintenance, Code Enforcement, Public Works, Water 
Department, Tax Assessor's Office, and Mayor's Office.
    Some of the major concerns we share are to make sure we 
receive a complete count of all new housing units, receive a 
complete review of all census tracts and population centers, 
receive a complete count of local mental health institutions, 
receive a complete count of our tenant population, and develop 
promotional materials targeting our Caribbean population to 
encourage them to participate, involve community-based 
organizations in our various neighborhoods to encourage 
participation.
    The other thing is, this program, we need strong leadership 
crucial for the final years leading up to the 2010 census. As 
the Census Bureau shifts from planning to preparations, the 
current director Lewis Kincannon announced his resignation in 
November. Unfortunately, the administration has not nominated 
anyone to replace him. We feel the nominee should be a strong 
manager with highly respected scientific credentials and no 
political baggage that can affect the Census Bureau's 
reputation as a nonpartisan statistical agency.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Mayor.
    I should have mentioned that each witness should summarize 
their testimony in order to expedite, because the committee has 
every statement.
    We will begin now with Ms. Narasaki. Perhaps you can 
summarize. Please proceed.

                  STATEMENT OF KAREN NARASAKI

    Ms. Narasaki. Thank you, Mr. Chair. I also appreciate this 
opportunity to come before you and share with you the Civil 
Rights community's interest in census 2010.
    As you know, I serve as Vice Chair of the Leadership 
Conference, which is one of the oldest and strongest national 
coalitions of civil rights groups. My organization co-chairs 
with NALEO, its civil rights task force, and for census 2000 
Asian American Justice Center led the effort to educate the 
Asian American community.
    I want to tell you we share with the chairman our concern 
about the lack of funding for the partnership programs. We 
believe that this census will be even more difficult to get 
people to cooperate quickly. We have, since 2000, growing 
immigrant communities and growing diversity of languages. We 
have had growing concerns about privacy, and also the crackdown 
on immigrants that has occurred since 9/11 has driven many 
people into the shadows. It is going to take much more effort 
with community-based organizations to get the same count, much 
less to improve the count that we had in 2000.
    As you know, while we made progress in 2000, we still had a 
differential undercount of minority communities, which hurt 
certain cities and rural communities even more. These 
partnerships are really critical to making sure that minority 
communities really understand what the census is for, why you 
can trust the Bureau, what the privacy rules are, and how to 
participate quickly. And it pays for themselves, because, as 
the Census Bureau will tell you, every person that they don't 
have to do followup saves them enormous funding, so it is 
actually an investment that is effective, not just an 
expenditure.
    We disagree with the statement that it is not important for 
the partnership program to be funded in 2008 because the 
reality is it takes communities a lot of time to ramp up for 
the census. One of the things that we found was those 
communities who put additional funding into the outreach did a 
better count than those that waited too long. This outreach 
program is important to get the community-based organizations 
advocating with their local governments to make sure that they 
are putting more money into outreach, and also building these 
effective complete count committees. We do not think that we 
can wait for 2009 and 2010 in order to have the kind of 
foundation we will need to make that program fully effective.
    We are also concerned about the language assistance 
programs. We believe the Bureau has made great strides, and 
particularly for Spanish, but we think they are not giving 
enough lead time in order to do the many other languages, at 
least the largest other languages. We found that, for 
community-based organizations to work effectively with the 
census, translations are key, and even the word census can be 
translated many times in different ways in different languages. 
So we need to have the Census Bureau settle on their 
translations early so that the community-based organizations 
and ethnic media know what the vocabulary is going to be so 
that they can be consistent in their outreach and education and 
not cause confusion in the community.
    We also believe that there needs to be more funding put 
into the advertising campaign. That is, again, a campaign that 
will pay for itself, because the more people who again mail in 
immediately and do not require expensive person-to-person 
followup, the more money the Bureau saves.
    In 2000 the advertising campaign really helped, we think, 
improve, particularly for minority communities. We think that 
more money needs to be put in this, and particularly for the 
Asian community, which has to advertise in many more languages 
than some of the other communities.
    We hope that you will look at that with the Census Bureau.
    We also want to comment briefly on the content 
determination. There was, again, a review of the racial 
categories. We believe the Bureau made the correct 
determinations on the race and ethnicity questions based on the 
research it conducted. We were concerned that the research 
methodology did not offer samples so as to really accurately 
measure the effect of the different forms of questions on the 
small populations, specifically the Pacific Islanders and the 
Native American communities, but we believe it is too late now 
to change any question in terms of the race question, because 
we know that even minor changes can vastly affect in unexpected 
ways the count of various minority communities.
    Finally, it is important for me to note I share the mayor's 
concern about the American Community Survey. We are very 
concerned that there is not enough attention being paid on the 
language access and language outreach for this important 
survey. As you know, it replaces the long form, which provides 
very rich detail, much needed when looking at poverty and 
housing and other concerns that minority communities have. Yet, 
we feel that there is a significant undercount of small 
populations, and so we hope that is something that you will 
consider having a longer hearing on subsequently.
    Thank you.
    [The prepared statement of Ms. Narasaki follows:]

    [GRAPHIC] [TIFF OMITTED] T5769.033
    
    [GRAPHIC] [TIFF OMITTED] T5769.034
    
    [GRAPHIC] [TIFF OMITTED] T5769.035
    
    [GRAPHIC] [TIFF OMITTED] T5769.036
    
    [GRAPHIC] [TIFF OMITTED] T5769.037
    
    [GRAPHIC] [TIFF OMITTED] T5769.038
    
    [GRAPHIC] [TIFF OMITTED] T5769.039
    
    [GRAPHIC] [TIFF OMITTED] T5769.040
    
    [GRAPHIC] [TIFF OMITTED] T5769.041
    
    [GRAPHIC] [TIFF OMITTED] T5769.042
    
    [GRAPHIC] [TIFF OMITTED] T5769.043
    
    [GRAPHIC] [TIFF OMITTED] T5769.044
    
    [GRAPHIC] [TIFF OMITTED] T5769.045
    
    [GRAPHIC] [TIFF OMITTED] T5769.046
    
    Mr. Clay. Thank you so much for your testimony.
    Mr. Prewitt, please.

                  STATEMENT OF KENNETH PREWITT

    Mr. Prewitt. Yes, Mr. Chairman. Thank you very much for 
this opportunity.
    With your permission, I will focus on the oversight process 
more than the particularities of the census, itself.
    I would like to start with three principles. I would urge 
that the subcommittee work with the Bureau to maximize public 
cooperation. That is obvious. On the other hand, we sometimes 
forget that there is no such thing as a national statistical 
system without the public engagement of the American people. 
That is, statistics are nothing more than the aggregation of 
millions of Americans honestly and voluntarily checking boxes, 
filling in forms, and answering questions.
    Research conducted after census 2000 documented that the 
partnership program, the advertising program was enormously 
successful, certainly reaching into the minority population, in 
particular, as was just stressed by Karen. I conducted some of 
that research, myself, and with the permission of the chairman 
I would like to put into the record a summary of some of that 
research at the end of the hearing.
    Mr. Clay. Without objection.
    Mr. Prewitt. Thank you very much.
    The second thing I would mention by way of a basic 
principle is to ensure that the purposes of the census are 
explained to the American people. The decennial census is a 
nonpartisan starting point of a process that initiates a chain 
of events that moves from elections to representation to 
legislation, and the census is a marvelous teaching opportunity 
to explain to the American people the basics of our 
representative democracy, and I would hope that the advertising 
partnership program can make that one of the central messages.
    The third principle, of course, is to ensure the highest 
quality results feasible. A census that is poorly conducted 
reflects unfavorably on the Government's ability to discharge a 
major constitutional responsibility. If well conducted, it 
signals to the public that the Government can effectively carry 
a large, complicated, and expensive task on schedule, on 
budget.
    The subcommittee does not have to worry about whether the 
professionals at the Census Bureau want a quality census or 
will work endless hours to ensure that outcome. It does not 
have to worry about the intentions of the Bureau, but it does 
have, nevertheless, to exercise its oversight responsibilities 
in determining whether census operations are working as planned 
and whether the Bureau has the staff and financial resources to 
execute its plan.
    So I would like to suggest a sort of theory, if you will, 
of how to approach the oversight responsibilities as follows: 
First, similar to today's hearing, what we would call sort of 
hearings on design issues to bring in outside voices so that 
the subcommittee has a high level of comfort with the design 
that the Census Bureau was going to implement. In 2000 we did 
not have the benefit of that high level of comfort between the 
Census Bureau and this subcommittee, and that hurt the census. 
I would hope under your leadership that you would reach that 
high level of comfort with the program at the Census Bureau, 
even as some of the earlier questions to Mr. Waite suggested, 
working on particular questions or what have you.
    But at a certain point the design has to be locked down. 
Beyond this point it is actually counterproductive to try to 
use the congressional oversight to fine-tune census operations 
at that moment I would suggest that the next major thrust of 
the oversight process would be to ask whether the Bureau has 
the resources, personnel and financial, to execute the plan 
that has now been agreed upon with the subcommittee.
    We remind ourselves constantly that the census cannot be 
postponed if there are funding delays. The Bureau has no choice 
but to proceed with optimal operations, as Jay Waite just 
mentioned.
    One thing that you want to stress, I think, in the second 
phase of the oversight hearings is whether the Census Bureau 
has in mind a Plan B if Plan A encounters troubles. For that 
there will have to be some contingency funding. No census can 
proceed on the assumption there is not going to be some 
unexpecteds. There will be unexpecteds, and it will take some 
sort of cushion to allow the Census Bureau to be quick and 
effective in responding to that.
    Finally, then, I would think that the congressional 
subcommittee under your leadership would turn to implementation 
issues. As the operations commence, hearings should be guided 
by one overriding question: is the census on schedule, on 
budget. It is the no surprise principle. No one wants a failed 
census, as the 1990 census was sometimes called, not the 
Congress, not the Census Bureau, and certainly not the American 
people. The only way to guard against this low possibility is 
for the subcommittee to focus on major problems that threaten 
the successful implementation of the agreed-upon design and to 
take necessary corrective action.
    The census proceeds against a relentless calendar. April 1, 
2010, is the fixed census day, and a short 9 months later is 
the deadline for the first and most important deliverable, the 
State-by-State reapportionment counts.
    Already I have no doubt Census Bureau leadership is anxious 
about those looming dates, every day asking themselves are we 
on schedule, are we on budget. I invite the subcommittee to 
constantly ask that question.
    Thank you, sir.
    [The prepared statement of Mr. Prewitt follows:]

    [GRAPHIC] [TIFF OMITTED] T5769.047
    
    [GRAPHIC] [TIFF OMITTED] T5769.048
    
    [GRAPHIC] [TIFF OMITTED] T5769.049
    
    Mr. Clay. Thank you very much for that expert testimony. I 
appreciate it.
    Dr. Salvo, you may proceed.

                   STATEMENT OF JOSEPH SALVO

    Mr. Salvo. Chairman Clay, I want to thank you for the 
opportunity to speak today on behalf of Mayor Michael 
Bloomberg. I want to thank you for the opportunity to talk 
about some very important census issues. I would also like to 
extend a thank you to Congresswoman Maloney for her support.
    The decennial census is all about accuracy. First and 
foremost, accuracy is based on the quality of the address list 
that is used by the Census Bureau to mail questionnaires to 
most households in the United States. This is because it is not 
only important to be counted, but to be counted at a specific 
location, the right place.
    For most households in the United States, census 
questionnaires are mailed to exact addresses. An exact address 
is a location with a number, street name, and apartment 
designator. Names are not used to mail census questionnaires. 
The entire census operation is based on an assumption that the 
list of exact addresses in what is called a master address file 
will tie a questionnaire to a specific household, to a specific 
housing unit. Moreover, when a household fails to respond, 
these exact addresses become very important in determining 
locations for field workers to go so that they can obtain 
responses.
    While the Census Bureau has worked very hard in trying to 
update the master address file over the last few years, the 
fact is that real conditions on the ground have outpaced their 
capability, their capacity to keep the address list current in 
many areas. New construction, conversion of buildings from non-
residential to residential use, garages that get converted to 
residences, attic and basement apartments, building 
subdivision, all of these things affect their ability to 
capture units.
    Fortunately, as you have heard, we have the local update of 
census addresses program [LUCA] program. A common activity in 
the LUCA program involves receipt of a file, the actual nest or 
address file from the Census Bureau by the local government, 
and that file is compared to locally derived lists. These lists 
can be from E-9-11 addresses; residential water, sewer, utility 
accounts; records of real property for tax purposes; 
construction permits; certificates of occupancy. The list goes 
on.
    The Census Bureau is currently conducting LUCA promotional 
meetings throughout the country in an effort to encourage 
participation. While the Census Bureau's efforts are admirable, 
our experience with the program indicates that the Bureau has 
not allowed enough time up front for localities to prepare. 
Technical training needs to begin several months before 
delivery of the files to localities so that they can compile 
and format their data to allow for efficient comparisons in the 
allotted time. The LUCA program, while important, is only part 
of the answer to the problem of compiling an accurate address 
list and achieving an accurate count of population. This is 
because of incomplete or absent labeling of apartments, the 
basement or the attic with a tenant, the extra tenant in the 
garage, the one-family house that has been subdivided into 
three apartments.
    There is an illustration, a picture at the end of my 
written testimony labeled illustration one that gives an 
example of such a property. Labels are usually not obvious when 
field workers conduct their canvassing operations before the 
census, and even when these apartments are obvious, rules do 
not exist on the use of labels. Most important, the absence of 
apartment designators means that many of the housing units will 
not be captured in the census because questionnaire delivery by 
the Postal Service is compromised. In many places you have a 
single mailbox, tenants sort their own mail, mail is sorted by 
a letter carrier using names. These are options that are not 
captured by the delivery of census questionnaires. 
Illustrations two and three in my handout give you some 
examples.
    Since questionnaires do not include names when they are 
mailed, the Census Bureau relies on the link to an apartment 
number to connect the housing unit with the questionnaire. The 
bottom line is that in many neighborhoods accurate labels do 
not exist. This deficiency means that the math is inaccurate in 
many places because it does not reflect all the addresses that 
exist.
    For more than 2 years, the Census Bureau has been 
conducting research on alternate methods to count people in 
small, multi-family buildings where apartment numbers are 
confusing or non-existent. We all have a responsibility to 
provide the Census Bureau with information, but the Census 
Bureau needs to use a new procedure--a procedure that they 
actually have used before but it would be new in these areas--
called update enumerate, where census workers walk around 
blocks with their address list in hand, knock on doors, update 
addresses, and count the persons behind those doors, with a set 
of rules regarding how to label apartments.
    Because the 2010 census will only include a handful of 
questions, we have the short form only census, it should be 
easy to do this. Congress should encourage the Census Bureau to 
identify and target neighborhoods with a preponderance of these 
non-traditional addresses and implement what are called update 
enumerate methods.
    Thank you very much.
    [The prepared statement of Mr. Salvo follows:]

    [GRAPHIC] [TIFF OMITTED] T5769.050
    
    [GRAPHIC] [TIFF OMITTED] T5769.051
    
    [GRAPHIC] [TIFF OMITTED] T5769.052
    
    [GRAPHIC] [TIFF OMITTED] T5769.053
    
    [GRAPHIC] [TIFF OMITTED] T5769.054
    
    [GRAPHIC] [TIFF OMITTED] T5769.055
    
    [GRAPHIC] [TIFF OMITTED] T5769.056
    
    [GRAPHIC] [TIFF OMITTED] T5769.057
    
    [GRAPHIC] [TIFF OMITTED] T5769.058
    
    [GRAPHIC] [TIFF OMITTED] T5769.059
    
    [GRAPHIC] [TIFF OMITTED] T5769.060
    
    Mr. Clay. Thank you so much for that.
    Ms. Narasaki, I understand you have to be excused. You may 
leave. Thank you so much for your testimony.
    Ms. Narasaki. Thank you.
    Mr. Clay. You are welcome.
    Mr. Murray, you may proceed.

                  STATEMENT OF MICHAEL MURRAY

    Mr. Murray. Good afternoon, Chairman Clay.
    Mr. Clay. Hello.
    Mr. Murray. I am pleased to have the opportunity to discuss 
the role of Harris Corp. in supporting the Census Bureau in 
ensuring the success of the 2010 decennial census.
    As vice president of programs for Harris Corp., I am 
responsible for the successful execution of the MAF/TIGER 
program, which integrates topological data and the field data 
collection automation program [FDCA].
    Harris is proud that both program teams are performing 
extremely well in support of the Census Bureau's decennial 
count. Our overall progress to date gives me confidence that 
the 2010 decennial census will be the most accurate, most 
complete, most cost-effective, and most secure census ever.
    The field data collection program was awarded to Harris 
Corp. in April 2006. In partnership with the Census Bureau, we 
have, in our opinion, made tremendous progress. Program 
performance is on plan. The FDCA program provides the 
automation support, including hardware, applications, and 
infrastructure necessary for the Census Bureau to collect high-
quality data in an efficient and cost-effective manner for the 
2010 decennial census. Harris has developed an architecture for 
FDCA that is low risk, modular, flexible, scalable, and 
utilizes proven technologies and commercial off-the-shelf 
products to the maximum extent possible.
    The program architecture integrates wireless technology, 
GPS, and information technology in order to provide a highly 
available support structure to census field operations. It 
maintains data integrity, accuracy, and security.
    Multiple overlapping security measures are provided for IT 
and telecommunications throughout the FDCA enterprise to 
protect title 13 data. Some specific security features include 
fingerprint authentication, password authentication, automatic 
data encryption during storage, encrypted data transmission 
over a private network, firewalls, virus protection, and a 
kiosk feature that limits the device for only FDCA use.
    Harris has successfully completed the design, development, 
and formal test and implementation effort for dress rehearsal 
address canvassing operations as planned. We have deployed the 
office equipment and application software necessary to support 
next month's dress rehearsal address canvassing operations. 
Harris has deployed nearly 1,400 handheld computers and 
established the FDCA infrastructure, which includes a help 
desk, a network operations center, a security operations 
center. This system supports operational activities at Stockton 
and Fayetteville local census offices and the Charlotte and 
Seattle regional census centers.
    We have initiated the engineering efforts associated with 
the next two significant dress rehearsal operations, automating 
paper-based operations and non-response followup.
    I would like to thank the members of this committee for the 
invitation to testify. Harris Corp. appreciates the opportunity 
to share with you the successful completion of key FDCA 
milestones and our plans for moving forward to ensure the 2010 
decennial census is the most comprehensive, most accurate, most 
cost effective, and most secure census ever.
    I look forward to answering any questions you might have, 
and I would like to note at the end of the hearing and with the 
agreement of the chairman we will provide a demonstration of 
key attributes and functionality of the handheld computer for 
those interested.
    Thank you.
    [The prepared statement of Mr. Murray follows:]

    [GRAPHIC] [TIFF OMITTED] T5769.061
    
    [GRAPHIC] [TIFF OMITTED] T5769.062
    
    [GRAPHIC] [TIFF OMITTED] T5769.063
    
    [GRAPHIC] [TIFF OMITTED] T5769.064
    
    [GRAPHIC] [TIFF OMITTED] T5769.065
    
    [GRAPHIC] [TIFF OMITTED] T5769.066
    
    [GRAPHIC] [TIFF OMITTED] T5769.067
    
    [GRAPHIC] [TIFF OMITTED] T5769.068
    
    Mr. Clay. Thank you very much for your testimony.
    Let me start with Mayor Bowser.
    Mr. Mayor, State governments have been invited to 
participate in the LUCA program during the 2008 census dress 
rehearsal. This requires that they obtain information from 
local jurisdictions. It has come to the subcommittee's 
attention that some local jurisdictions are reluctant to share 
the information for fear that it might be shared with third 
parties other than the Census Bureau. What specific actions or 
programs has the U.S. Conference of Mayors instituted to work 
with Members and State officials to ensure that information 
gathered for the dress rehearsal is not shared with any agency 
other than the Census Bureau?
    Mr. Bowser. Well, I know within our own community we only 
assign two people to handle the census, and one works with the 
county because we are trying to put together a bigger program 
than just the local effort.
    The U.S. Conference of Mayors is getting ready to have some 
training sessions to make sure that the information is not 
shared beyond what is necessary for the Census Bureau.
    I think that is the best I can say about that.
    Mr. Clay. So the Conference of Mayors, the U.S. Conference 
of Mayors does have a plan to facilitate the local programs 
with the Bureau?
    Mr. Bowser. Yes.
    Mr. Clay. OK. Thank you for that response.
    Dr. Prewitt, let me begin by thanking you for your service 
to the Nation as Director of the Census from 1998 until 2001. 
Much of the success of the 2000 decennial census can be 
directly attributed to your leadership and dedication.
    I also want to thank you for acknowledging the diligence 
and commitment of the Bureau's staff. You are right in your 
assessment that some Members are not aware of how difficult a 
task we have assigned to the Bureau. Their task is made all the 
more difficult when Congress does not provide sufficient 
resources for planning and implementation of the decennial 
census. Again, thank you for making that point.
    I also appreciate your providing your professional opinion 
on how the subcommittee can best approach oversight of the 
census.
    What do you believe were the most notable successes of the 
2000 census? And in your response I would like for you to 
address the role partnerships might have played in achieving 
your goals at the time.
    Mr. Prewitt. Thank you very much for your kind comments, 
Mr. Chairman.
    With respect to specifically the partnership program, I 
traveled a great deal. I felt that the Director of the Census 
had a kind of a role somewhere between a preacher and a 
cheerleader, to try to explain, but also to celebrate, if you 
will, the census. I must have visited in the neighborhood of 
200 different events that were organized by the partnership 
program. They all had the same characteristic. There was just a 
community excitement and an understanding of this 
responsibility.
    I won't detail this, but, for example, I remember in San 
Antonio the oldest Catholic church in the country, as a matter 
of fact, dedicated a whole mass just to the census, because 
they felt so strongly about the importance of reaching out to 
the undocumented in that area and used the church to make that 
message.
    Chambers of commerce, corporations all over the country. So 
insofar as the census becomes a kind of a government 
responsibility that is owned by the people, that happened 
through the partnership program.
    It is very difficult to document the exact payoff in the 
response rate; however, I was, at the end of the census, very 
pleased to recognize the GAO, itself, recognized that the 
partnership program had made a difference in the mail-back 
response rate, which saves money. More important than that, it 
engaged the American people in this very important civic 
responsibility.
    Mr. Clay. So the key is actually to involve communities and 
involve Americans in the census and make them feel a part of 
the census, and I guess explain to them, through the 
advertising, that this is essential to us building this 
country.
    Mr. Prewitt. I think, if I could continue for a second, Mr. 
Chairman, you appreciate, of course, in 2000 there was a 
partisan battle about the census. It was intense, and it sort 
of crippled some of the things we would have liked to have 
done. I will just give you one example. It would be marvelous 
in 2010 if on April 1st the U.S. Congress stops collectively 
its business and all of them sit there and fill out their form 
on television to say to the American people this is what this 
is all about. So those kinds of things would create a 
fundamentally different, I think, mind set, if you will, about 
what a census can be.
    Mr. Clay. And you also talked about how this committee 
needs to use the oversight function through different stages of 
the census, the lead up to the dress rehearsal, actually in 
that period between 2008 and 2010, and to troubleshoot, 
actually, and to make sure that everything is prepared to go 
for that April 1st date. I mean, you stressed it in your 
testimony.
    Mr. Prewitt. Yes.
    Mr. Clay. I guess you can't say it often enough to us to 
actually use the oversight function.
    Mr. Prewitt. Of course, on behalf of the American people, 
you are the responsible agency to make sure that there is a 
good census. And I think don't underestimate the extent to 
which hearings operate as a discipline on the Bureau, making 
sure they have their act together, they have their answers in 
place. Even though it sounds sometimes rote, I can tell you 
back at the Bureau when we get ready for hearings we take it 
very, very seriously. So there is a real responsibility that 
the Congress can exercise.
    Mr. Clay. Thank you so much for that response.
    Dr. Salvo, in response to you raising the issue of non-
traditional housing patterns, particularly multi-unit 
dwellings, what specific challenges do you believe the Bureau 
will face with respect to these units during the 2008 dress 
rehearsal, and what adjustments would you recommend they make 
to the current plan to address these challenges?
    Mr. Salvo. Well, ideally it would be great if the Census 
Bureau tested this procedure that I have outlined called update 
enumerate where, in effect, blocks in the test area are 
identified as having addresses that, frankly, cannot be mailed 
to, and instead enumerators are sent out to conduct the 
enumeration in person, to knock on doors, fix the list, and 
conduct the enumeration.
    Again, we are dealing with a short form only census. 
Penetration of these households in small, medium, and large 
cities--and I should say that. What I am talking about exists 
in many places--can only occur if the local people, people who 
are hired locally by the Bureau, go out and pound the pavement 
and knock on those doors and enumerate people contained within 
those housing units.
    Mr. Clay. OK. You raise a good point.
    Now let me go to Mr. Murray. Will your handheld devices 
address the issue that he raised about five different mailboxes 
being in one what was initially a single family home. I mean, 
he supplied us with photos of a single family house that was 
converted into a three-unit house that had five mailboxes. How 
would your handheld address that?
    Mr. Murray. Yes, it will. It has the capability to, as they 
are address canvassing that particular street or area or where 
you are seeing the multiple mailboxes, the enumerator will be 
standing at the base of the mailbox. It will have the addresses 
that are currently on record in the device. It also has the 
capability to go and add new addresses for the additional 
mailboxes that have been identified.
    Mr. Clay. I see. The subcommittee has learned that there 
are concerns about the time line of training, the training time 
line. What is the status of the project, Mr. Murray? Are you 
all on schedule and on budget?
    Mr. Murray. We are currently on schedule and, as I 
mentioned, we have deployed the FDCA system to support the 
dress rehearsal, address canvassing operations in Stockton and 
Fayetteville, and it is ready for operations. We have a field 
force out there right now. We have IT technicians supporting 
the Bureau and, again, are ready to support those operations.
    With respect to the budget, we are on plan. With respect to 
the overall program, there are challenges in fiscal year 2007 
that we are addressing.
    Mr. Clay. OK. And, of course, the cost for the project is 
$200 million, which is a substantial expense. Is the program 
adaptable for future use?
    Mr. Murray. For the MAF/TIGER program it is $200 million. 
For FDCA it is $600 million. For MAF/TIGER, there is a marriage 
between MAF/TIGER and FDCA that can occur. MAF/TIGER basically 
does the base road network, and FDCA has the capability to add 
additional roads. The advantage of MAF/TIGER is MAF/TIGER in 
the long run will be able to add roads on a larger scale. FDCA 
will add roads as the enumerators are literally address 
canvassing the streets. The handheld device that we have built 
has the capability of adding roads real time while the 
enumerators are out on the street on those roads using the GPS 
technology.
    Mr. Clay. I see. Thank you for that response.
    Let me ask Mayor Bowser, I assume you were the mayor of 
East Orange during the 2000 census?
    Mr. Bowser. Just after.
    Mr. Clay. Just after. OK. So you did not experience, or did 
you have----
    Mr. Bowser. I did participate briefly, because I was the 
director of public works in the city at the time that the 
preparation was getting ready for the 2000 census, and we did 
have a lot of preparation.
    What I failed to mention before when you asked about the 
U.S. Conference of Mayors, what they are doing, at the winter 
conference right here in D.C. the Census Bureau had a booth at 
our conference there, and at the June conference, which will be 
in California in Los Angeles, there will be workshops that will 
be taking place about the census in preparation for that coming 
up.
    Mr. Clay. So you think the partnership is essential?
    Mr. Bowser. It is necessary in a community like mine where 
we are in the categories of 50,000 to 100,000 people. We are 
the highest percentage of people of color, so when folks show 
up don't look like most of the people in the city, they get 
very scared. So you need to partnership to go and take some of 
the canvassers around and do whatever you have to do to make 
sure the church members are getting involved, the young people 
are getting involved. That is what we are prepared to do.
    Mr. Clay. And when you don't do that, that is when the 
under-counts occur.
    Mr. Bowser. Exactly.
    Mr. Clay. Thank you for that response.
    Mr. Prewitt, as you know, there is concern about Director 
Kincannon's resignation and the impact that it might have on 
the implementation of the 2010 census. You have served as 
Director of the Bureau and are fully knowledgeable of the type 
of leadership that is required of the head of the agency. Would 
you like to share any thoughts concerning the skills set the 
next Director should possess? Have you thrown your hat into the 
ring? Please feel free to comment on it.
    Mr. Prewitt. On the latter part of your question, sir, I 
felt very strongly when I was Director and after I left--and I 
put that in the record many times--that the Census Bureau 
Director should be a 5-year term appointment, not one that is 
coterminous with the Presidential change in leadership, for all 
the right reasons, without going through that. I was quite 
saddened by the fact that my resignation was accepted at about 
12:02 on January 20, 2000. As soon as President Bush said I do 
it was the end of my tenure.
    I would be deeply complimented if the White House were to 
approach me about being the Census Bureau Director now, and I 
say that very seriously because I think it would be a signal 
that we do not think the Census Bureau directorship is a 
partisan appointment, that it is beyond and above. It is like 
the National Science Foundation, the head of NASA. It is a 
scientific job fundamentally, not a political job. I haven't 
thrown my hat in the ring because I didn't think it would do 
any good, but I think it would be a very strong signal to the 
country that we see the census as outside of the political 
process, starting a political process, but it, itself, is 
outside the political process.
    So I think the most important criteria is someone that not 
only has the technical capacity and the managerial capacity, of 
course, to manage something that is complicated, and so forth, 
but also knows what the census stands for in the history of 
this country.
    Mr. Clay. While you were Director, did you ever offer up or 
encourage anyone in this body to offer and propose that we come 
up with a 5-year term? It is quite an intriguing concept that 
makes a lot of sense, especially with what we are going through 
now.
    Mr. Prewitt. I believe that Congresswoman Maloney at one 
time, indeed, framed some legislation on exactly that issue for 
sort of a seven into two cycle so you overlap the decennial, 
and it is too bad that legislation hasn't moved forward.
    Mr. Clay. Thank you for that.
    Dr. Salvo, any comments on Mr. Prewitt's response as far as 
a new Director for the Census? Do you have any ideas about 
that?
    Mr. Salvo. Well, I certainly agree that statistical 
demographic competency should be very, very high on the list of 
any candidate. Essentially, the head of the Census Bureau is 
given a job that requires an understanding of the science as 
the foundation for the decennial census and for the American 
Community Survey and all the programs at the Census Bureau. I 
would second Mr. Prewitt's kind of affirmation of the 
importance of getting someone in who really understands the 
science and how those things work.
    Mr. Clay. Thank you for that.
    The subcommittee has learned that there are concerns about 
the time line for LUCA training and the review and comment 
period. In your opinion, should the time line be revised? And 
if so, how?
    Mr. Salvo. The time line needs to be revised. The Census 
Bureau is in the field now doing what is called promotional 
LUCA training, which amounts to getting people interested in 
the program, getting them to come forward and agree to 
participate.
    When I go out with the Census Bureau--and I have gone out--
there is a lot that can be done to prepare jurisdictions from a 
technical standpoint. For example, there is software that the 
Census Bureau has that they can begin to introduce to the 
jurisdictions as an incentive to participate in LUCA. That 
needs to be done within the next 2 months, because summer is 
coming up, the files will be delivered in the fall. You cannot 
do technical training at the same time that you deliver the 
files. It needs to be done several months in advance, which 
means June of this year would be a good time point.
    Mr. Clay. How about you, Mayor Bowser? How do you feel 
about the time line with LUCA?
    Mr. Bowser. Well, I think the time line seems to be a 
little bit too compressed. Certainly, the more preparation you 
have, because this is too important to really the lifeblood of 
the cities and to the country, so the more prepared you are, 
the more accurate the numbers are going to be, and then 
everybody can benefit from that.
    Mr. Clay. Thank you so much.
    Mr. Murray, the handheld devices will not be field tested 
until next month. GAO expressed concerns that leaves little 
time to correct any problems with the devices before the 2008 
dress rehearsal. Does Harris have a plan for addressing 
problems that might arise during the field test and correcting 
them before the dress rehearsal? Please explain.
    Mr. Murray. I was actually very delighted to meet Mr. Scire 
from the GAO, because I have been reading his reports for some 
time from the 2004-2006 tests, so during the break I had the 
opportunity to actually walk through the new device, provided 
him a brief demo as to how we have addressed the issues that 
have been identified in his report. So right now the key is the 
handheld device is built. This is the device that will work for 
decennial. We will test it during dress rehearsal.
    We have done some extensive testing on it so far. From a 
production standpoint, we have gone through what we call 
destructive testing on over 1,000 units, where we have done 
everything from shock and vibration testing, dropping them in 
water, seeing what they will do, what they won't do, every type 
of possible test. So we believe this device is solid, it is 
ready. The software is complete today for, again, dress 
rehearsal, address canvassing. It works. We have demonstrated 
it in our formal tests. So we are very comfortable and very 
confident that this device will be successful going forward.
    Mr. Clay. And, Mr. Murray, the devices have various 
security features. What has Harris done to ensure the 
reliability of these features?
    Mr. Murray. The first thing with respect to liability, for 
dress rehearsal we have delivered 1,388. We did a 100 percent 
test of all of those units, and every one of them worked.
    With respect to security, security is embedded throughout 
the architecture. As soon as an enumerator goes to a house, as 
they are entering the data, when they complete that housing 
data that they have entered, that data is then encrypted on the 
SD card that is located in the device.
    Once they complete that assignment and they walk away from 
that house, if they are in cell range that data is 
automatically transmitted over a private network, secure 
private network, and it is encrypted, and then it is removed 
from the device, itself.
    Mr. Clay. The handheld devices allow canvassers to collect 
GPS coordinates. The accuracy rate required by the Census 
Bureau is 3.5 meters. Do the devices meet or exceed that 
requirement?
    Mr. Murray. The devices do meet that. There are some 
limitations when you are in the middle in the city and your GPS 
is obstructed. Satellites are obstructed by tall buildings, or 
when you are in certain mountains there are some GPS 
obstructive. When you have clear shots of GPS satellites, it 
works flawlessly.
    Mr. Clay. OK. What happens when there are obstructions? How 
do you followup?
    Mr. Murray. They will take a mark, and they are able to 
take a mark, and the device will remember that mark. That 
particular mark will not be accurate to the three meters. It 
will be off by a couple of meters beyond that three meters.
    Mr. Clay. And that requires a person or enumerator to 
followup?
    Mr. Murray. Correct.
    Mr. Clay. OK. All right. Let me ask a final question of Mr. 
Bowser. I hear we have votes coming.
    Mr. Mayor, the Census Bureau will have regional and local 
offices to provide assistance to local officials. What are your 
expectations of the local offices, and how can they be a 
resource to your members in implementing the 2010 census?
    Mr. Bowser. Well, what we did during the last census I 
think really worked well, because regional offices' 
representatives made periodic regular visits to our community, 
because we are sort of like in the center of the county, and we 
would bring some of the surrounding communities in so that we 
all shared the same information at the same time, so the 
regional offices worked very well with us.
    Mr. Clay. All right.
    Let me wrap up this hearing by thanking all of you all for 
giving your time today, for coming here and testifying on such 
an important subject. I appreciate your expertise and your 
testimony today.
    I will adjourn the hearing.
    Mr. Murray, you do have permission to do a demonstration 
after the hearing.
    Mr. Murray. Thank you.
    Mr. Clay. Thank you so much. Thank you all for being here.
    The committee is adjourned.
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
